No. 20-5064
IN THE SUPREME COURT OF THE UNITED STATES
__________________________________
__________________________________
TONY BROWN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
__________________________________
__________________________________
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
________________________________
________________________________
REPLY BRIEF FOR PETITIONER
JOHN C. LEMON
1350 Columbia Street, Suite 600
San Diego, California 92101
Telephone (619) 794-0423
john@jcl-lawoffice.com
Counsel for Petitioner

Table of Contents
Table of Authorities

ii

Introduction

1

Argument

2

I.

This Court should grant review to address what constitutes
“prejudice” in this context, as well as to address the circuit split
regarding justifiable delay.
A.

B.

II.

1

The destruction by the State of the videotaped statements of
the alleged victims is prejudicial per se; the Ninth Circuit
panel’s circular holding conflicts with several other circuits
regarding actual prejudice.

1

The divided authority among the circuits regarding
“justifiable delay” warrants further review by this Court –
particularly given the facts of this case.

6

The Court should grant review to address the tension between
Landgraf and this Court’s cases holding that criminal statutes are
to be interpreted in favor of repose – that is, whether the Landgraf
analysis applies to criminal cases.

Conclusion

8
11

i

Table of Authorities
Cases
Carr v. United States,
560 U.S. 438 (2010)

8

Johnson v. United States,
529 U.S. 694 (2000)

8

Landgraf v. Usi Film Prods.
511 U.S. 244 (1994)

8-10

Palermo v. United States,
360 U.S. 343 (1959)

4

Toussie v. United States,
397 U.S. 112 (1970)

8-10

United States v. Beckett,
208 F.3d 140 (3d Cir. 2000)

3

United States v. Brown,
800 Fed. Appx. 455 (9th Cir. 2020)

8

United States v. Cornielle,
171 F.3d 748 (2d Cir. 1999)

4

United States v. Crooks,
766 F.2d 7 (1st Cir. 1985)

3

United States v. Engstrom,
965 F.2d 836 (10th Cir. 1992)

3

United States v. Gentile,
235 F Supp. 3d 649 (D.N.J. 2017)

10

ii

United States v. Gouveia,
467 U.S. 180 (1984)

3

United States v. Jackson,
446 F.3d 847 (8th Cir. 2006)

4

United States v. Lovasco,
431 U.S. 783 (1977)

6

United States v. Marion,
404 U.S. 307 (1971)

5

United States v. Mays,
549 F.2d 670 (9th Cir. 1977)

6-7

United States v. McMutuary,
217 F.3d 477 (7th Cir. 2000)

3

United States v. Miller,
911 F.3d 638 (1st Cir. 2018)

9-10

United States v. Monroe,
943 F.2d 1007 (9th Cir. 1991)

2

United States v. Richardson,
512 F.2d 105 (3d Cir. 1975)

9

United States v. Riley,
189 F.3d 802 (9th Cir. 1999)

4

United States v. Schaeffer,
586 F.3d 414 (6th Cir. 2009)

3

United States v. Well,
572 F.2d 1383 (9th Cir. 1978)

4

Weingarten v. United States,
865 F.3d 48 (2d Cir. 2017)

10
iii

Statute
18 U.S.C. § 3500

3

iv

Introduction
Petitioner, Tony Brown, submits this reply to the Brief for the United States
in Opposition. On the first question presented, with respect to prejudice, the
government adopts the same argument embraced by the Ninth Circuit – that
Petitioner cannot establish prejudice from the destruction of videotaped witness
statements without first reviewing the statements that no longer exist. But that
perfectly circular reasoning is at odds with not only this Court’s decisions, but also
those of several circuits. With respect to the justification for a delay, the
government acknowledges a circuit split, noting that the circuits “have taken
nonuniform approaches” in determining whether the government’s reasons for a
prejudicial delay constitute a valid excuse.
Regarding the second question, the government fails to address the
significant tension between Landgraf v. Usi Film Prods.1 and Toussie v. United
States,2 which has resulted in at least two circuit courts recently lamenting the lack
of guidance from this Court. The Court should grant review on both questions
presented.

1

511 U.S. 244 (1994).

2

397 U.S. 112 (1970).

Argument
I.

This Court should grant review to address what constitutes “prejudice”
in this context, as well as to address the circuit split regarding justifiable
delay.
A.

The destruction by the State of the videotaped statements of the
alleged victims is prejudicial per se; the Ninth Circuit panel’s circular
holding conflicts with several other circuits regarding actual
prejudice.

Sometime between the 2001 Los Angeles incident and the November 2014
superseding indictment, the Los Angeles District Attorney purged the case file and
destroyed the videotaped statements of the three alleged victims. In 2010, the
investigating officer – who wrote all the reports – was killed in combat.
Petitioner’s claim is simple: he was prejudiced by the State’s failure to preserve the
videotapes and by the death of the officer who wrote all the reports. Specifically,
the destruction of the tapes and the death of the officer denied Petitioner what
would otherwise have been Jencks Material; he was thus unable to impeach any
witness with a prior inconsistent statement. See United States v. Monroe, 943 F.2d
1007, 1012 (9th Cir. 1991) (“A basic rule of evidence provides that prior
inconsistent statements may be used to impeach the credibility of a witness.”).
In response, the government adopts wholesale the circular argument
embraced by the Ninth Circuit panel – that Petitioner cannot show prejudice from
the destruction of the tapes without first reviewing the tapes that no longer exist.
2

See Opp. at 10-11. It bears repeating then, that – unlike in every opinion cited by
the government on this issue3 – the now-unavailable evidence is a documentary
item that was both created by, and in the custody of, the State. And it is reasonable
to infer – especially after the passage of more than 15 years between the incident
and the trial – that the tapes would have been a trove of impeachment material.
Moreover, the Jencks Act requires the government to produce the verbatim
statements of its witnesses to the defense.4 And when Jencks Act statements have
been destroyed, the destruction is presumptively prejudicial because requiring the
defendant to review the statements that no longer exist in order to demonstrate
prejudice is a Catch-22. Accordingly, it is the government – not the defendant –
who should suffer the consequences:
We simply cannot tell without the notes. This is the Catch-22 caused
by the destruction of the notes. But since it was of the government’s
doing, it must live with the consequences.
3

See, e.g., United States v. Gouveia, 467 U.S. 180, 191 (1984)
(“witnesses’ memories could have dimmed, albi witnesses could have been
transferred . . . and physical evidence could have deteriorated”); United States v.
Schaeffer, 586 F.3d 414, 424 (6th Cir. 2009) (appellant “does not contend . . . that
specific evidence had been lost or destroyed”); United States v. Beckett, 208 F.3d
140, 151 (3d Cir. 2000) (appellant “does not . . . claim that items of evidence or
documents were lost”); United States v. Engstrom, 965 F.2d 836, 839 (10th Cir.
1992) (alleged fading memories of potential witnesses); United States v.
McMutuary, 217 F.3d 477, 482 (7th Cir. 2000) (“inability to call a single [alibi]
witness at trial”); United States v. Crooks, 766 F.2d 7, 11 (1st Cir. 1985) (same).
4

See 18 U.S.C. § 3500.
3

United States v. Riley, 189 F.3d 802, 807 (9th Cir. 1999) (reversing conviction
based on good-faith destruction of notes); see also United States v. Well, 572 F.2d
1383, 1384 (9th Cir. 1978) (“The Jencks Act does not require the defendant to
show prejudice.”); Palermo v. United States, 360 U.S. 343, 353, n. 10 (1959)
(“[T]he statute does not provide that consistency between the statement and the
witness’[s] testimony is to be a relevant consideration [regarding production].”).
Indeed, the only reason that the destruction of the videotapes was not a
violation of the Jencks Act in this case is the delay itself: because the tapes were
destroyed by the Los Angeles District Attorney sometime during the 13-years that
went by before the indictment, they were never in the possession of the federal
government for purposes of the Act.
Finally, the Ninth Circuit panel’s conclusion that Petitioner’s claim was
“speculative” is at odds with the decisions of several other circuits and this Court,
which have held that a defendant has established prejudice when he has identified
specific evidence that has been lost during the delay. For example, in United States
v. Cornielle, the Second Circuit held that “[p]rejudice in this context . . . is
commonly demonstrated by the loss of documentary evidence or the unavailability
of a key witness.” 171 F.3d 748, 752 (2d Cir. 1999) (emphasis added). Similarly,
in United States v. Jackson, the Eighth Circuit noted that “[t]o satisfy this burden,
4

the defendant must identify specific witnesses or documents lost during the delay
and the information they would have provided.” 446 F.3d 847, 851 (8th Cir. 2006);
see also Beckett, 208 F.3d at 151 (a failure to identify “items of evidence or
documents [that] were lost” renders a claim speculative). And this interpretation is
consistent with this Court’s conclusion that “‘actual prejudice’ may be shown if
‘memories . . . dim, witnesses become inaccessible, and evidence [is] lost.’”
Cornielle, 171 F.3d at 752 (quoting United States v. Marion, 404 U.S. 307, 325-26
(1971) (alterations in original)).
In short, but for their destruction during the 13-year delay, the government
would have been required to produce the videotaped statements under the Jencks
Act and its failure to produce those statements constitutes actual prejudice. This
prejudice was compounded by the death of the investigating officer, whose
unavailability made it impossible for Petitioner to impeach any government
witness at trial with the contemporaneous statements they made 15 years earlier.
This Court should grant review to resolve any ambiguity about what constitutes
non-speculative prejudice in this context.

5

B.

The divided authority among the circuits regarding “justifiable
delay” warrants further review by this Court – particularly given the
facts of this case.

In United States v. Lovasco, this Court held that, in addition to actual
prejudice, a defendant is required to show that the delay offends “those
fundamental conceptions of justice which lie at the base of our civil and political
institutions.” 431 U.S. 783, 789-90 (1977). The Lovasco Court, however, did not
elaborate on that standard. It instead observed that it “could not determine in the
abstract the circumstances in which preaccusation delay would require dismissing
prosecutions . . . [and left] to the lower courts, in the first instance, the task of
applying the settled principles of due process . . . to the particular circumstances of
individual cases.” 431 U.S. at 796-97. The lower courts have since arrived at very
different standards for resolving this inquiry.
The Ninth Circuit – apparently in the minority – has adopted “an approach
which balances the factors in the individual situation.” United States v. Mays, 549
F.2d 670, 677 (9th Cir. 1977). Those factors include both “the length of the delay”
and “the reason for the delay.” Id. at 678. And “although weighted less heavily
than deliberate delays, negligent conduct can also be considered, since the ultimate
responsibility for such circumstances must rest with the government rather than the
defendant.” Id. Accordingly, in the Ninth Circuit, the longer the prejudicial delay,

6

the better the government’s explanation for it will have to be:
The greater the length of the delay and the more substantial the actual
prejudice to the defendant becomes, the greater the reasonableness
and the necessity for the delay will have to be to balance out the
prejudice.
Id.
As the government recognizes in the opposition, that framework is decidedly
at odds with “several circuits [that] requir[e] a defendant to demonstrate that the
government intentionally delayed seeking an indictment to obtain tactical
advantage or for a similar bad-faith purpose.” Opp. at 12-13 (citing cases).
Whether a defendant is required to demonstrate that the government acted in
bad faith – rather than merely recklessly or negligently – is an important question
that this Court should address. And this case is an especially appropriate vehicle
for review because of its unique facts. Again, the federal government made a
conscious decision to resurrect two cases that had been resolved by state courts and
state prosecutors 13 years earlier, knowing full well that one of those cases had
resolved by way of a guilty plea while the other had been rejected for insufficient
evidence and that the statements of the alleged victims had been destroyed. In other
words, after more than a decade, the government stumbled across two old case files
from state court, recognized that it now enjoyed a distinct tactical advantage, and
pounced. This Court should decide whether that conduct offends “those
7

fundamental conceptions of justice which lie at the base of our civil and political
institutions.”
II.

The Court should grant review to address the tension between Landgraf
and this Court’s cases holding that criminal statutes of limitations are to
be interpreted in favor of repose – that is, whether the Landgraf analysis
applies to criminal cases.
This case presents a straightforward, but challenging, question of statutory

interpretation:5 whether a criminal statute of limitations should be given
retrospective application in the absence of express congressional intent that it
should. In Toussie v. United States, this Court noted that “we have stated before the
principle that criminal limitations statutes are to be liberally interpreted in favor of
repose.” 397 U.S. 112, 115 (1970). This Court has also observed that “[a]bsent a
clear statement of [retrospective] intent, we do not give retroactive effect to statutes
burdening private interests.” Johnson v. United States, 529 U.S. 694, 701 (2000);
see also Carr v. United States, 560 U.S. 438, 450 n. 6 (2010) (noting the “wellestablished presumption against retroactivity”). Consistent with those
pronouncements (and expressly relying on Toussie), the Third Circuit held in

5

Once more, Petitioner’s claim is one of congressional intent; it is not
based on the ex post facto clause, a distinction that was lost on the Ninth Circuit
panel, which concluded that “because there is no ex post facto problem here, the
prosecution was timely.” United States v. Brown, 800 Fed. Appx. 455, 461 (9th
Cir. 2020).
8

United States v. Richardson – on facts indistinguishable from the facts of this case
– that a successive statute of limitations cannot have a retrospective effect in the
absence of congressional intent. 512 F.2d 105, 106 (3d Cir. 1975).
In response, the government cites to Landgraf v. USI Film Products, arguing
that “[c]hanges in procedural rules may often be applied in suits arising before
their enactment without raising concerns about retroactivity.” Opp. at 14 (citing
Landgraf, 511 U.S. 244, 275 (1994)). But Landgraf was a civil case. And in the
criminal context, there is more at stake than merely a “change[] in procedural
rules.” This is an important distinction and one that the government recognizes –
noting that “Richardson . . . was decided before Landgraf and is in some tension
with Landgraf’s analysis.”6 Opp. at 15.
Indeed, the lower courts have recently struggled with the tension between
Landgraf and Toussie. In United States v. Miller, for example, the First Circuit
noted that, after Landgraf, the retroactivity question in a criminal case does not
“yield[] a readily discernible result” and is “hard to negotiate.” 911 F.3d 638, 644-

6

The government’s fall-back argument regarding Richardson – that it
addressed a different statute and therefore has no application here – is of no
moment. The issue in Richardson was identical to the issue presented here:
whether a statute of limitations enacted after the offense but before the expiration
of the previous statute can apply retrospectively in the absence of congressional
intent.
9

45 (1st Cir. 2018). Specifically addressing the second step of the Landgraf
analysis, the Miller court observed that “[t]he problem becomes dicier because
criminal statutes are to be liberally interpreted in favor of repose” and that “Toussie
potentially alters the second step in the Landgraf approach.” Id. at 645 (quotations
and citations omitted). Similarly, in Weingarten v. United States, the Second
Circuit noted that applying the Landgraf analysis in the criminal context “has
proved particularly difficult” and lamented “the lack of controlling authority on
this difficult issue.”7 865 F.3d 48, 56, 58 (2d Cir. 2017). And at least one district
court has recently held that when analyzing the interplay between Landgraf and
Toussie, a court “must interpret the statute of limitations in a manner favoring
repose for Defendant.” United States v. Gentile, 235 F. Supp. 3d 649, 655 (D.N.J.
2017). This Court should grant review to resolve this difficult question.

7

Citing the uncertainty surrounding this question, both the Miller and
Weingarten courts declined to resolve this issue because it was raised in the
context of a claim of ineffective assistance of counsel. See Miller, 911 F.3d at 645;
Weingarten, 865 F.3d at 58.
10

Conclusion
The Court should grant the petition for a writ of certiorari.
Respectfully submitted,

/s John C. Lemon
JOHN C. LEMON
1350 Columbia Street, Suite 600
San Diego, California 92101
(619) 794-0420
john@jcl-lawoffice.com
Counsel for Petitioner

Dated: December 21, 2020

11

